                 FINANCIAL AND COMPLIANCE CLOSEOUT AUDIT



                        WELFARE-TO-WORK
                    COMPETITIVE GRANT PROGRAM


                     PRIVATE INDUSTRY COUNCIL SDA-V
                                   AND
                        TRAINING PLUS FOUNDATION
                               (SDA-V & TPF)


                       AGREEMENT NO. Y-7866-9-00-81-60

                                  CLOSEOUT AUDIT PERIOD

                         OCTOBER 1, 1999 THROUGH MARCH 31, 2002




This audit was performed by Carmichael, Brasher, Tuvell & Company, Certified Public
Accountants, under contract to the Inspector General, and, by acceptance it becomes a report
of the Office of Inspector General.




                                                    Assistant Inspector General for Audit




                                                           REPORT NO: 05-03-001-03-386
                                                          DATE ISSUED: February 26, 2003

                                                                           Carmichael
                                                                        Brasher Tuvell
Certified Public Accountants                                              & Company
SDA-V & TPF Welfare-to-Work Competitive Grant




                                TABLE OF CONTENTS


Acronyms                                                               ii

Executive Summary                                                      1

Introduction:

       Background                                                      3

       Principal Criteria                                              4

       Objectives, Scope, and Methodology                              4

Independent Auditors’ Report                                           6

Cumulative Quarterly Financial Status Report
      Reporting Period: March 31, 2002                                 9


Notes to the Cumulative Quarterly Financial Status Report              10

Findings and Recommendations:

       1. Unallowable Costs                                            11

       2. Noncompliance with Grant Requirements                        20

       3. Misclassified and Inadequate Documentation of Participants   24



Appendix A – Grantee Responses                                         26




DOL-OIG Report No. 05-03-001-03-386
SDA-V & TPF Welfare-to-Work Competitive Grant




                                        ACRONYMS

                CFR                             Code of Federal Regulations

                DOL                             U.S. Department of Labor

                ETA                             Employment and Training Administration

                KDHR                            Kansas Department of Human Resources

                MIS                             Management Information System

                OIG                             Office of Inspector General

                OMB                             Office of Management and Budget

                QFSR                            Quarterly Financial Status Report

                SDA-V & TPF                     Private Industry Council Service Delivery
                                                Area - V and Training Plus Foundation
                                                (Grantee)

                TANF                            Temporary Assistance for Needy Families

                TPF                             Training Plus Foundation

                WtW                             Welfare-to-Work




DOL-OIG   Report No. 05-03-001-03-386                                               ii
SDA-V & TPF Welfare-to-Work Competitive Grant




                              EXECUTIVE SUMMARY
Carmichael, Brasher, Tuvell & Company, under contract with the U.S. Department of Labor,
(DOL) Office of Inspector General, (OIG) has completed a financial and compliance closeout
audit of the $3,767,968 Welfare-to-Work (WtW) Competitive Grant awarded to Private Industry
Council SDA-V and Training Plus Foundation, hereafter referred to as SDA-V & TPF. The
grant’s original period of performance was October 1, 1999 through April 1, 2002. The grantee
voluntarily terminated its grant agreement as of March 15, 2002. Our closeout audit period was
from October 1, 1999 through March 31, 2002. As of March 31, 2002, SDA-V & TPF had
claimed $2,658,726 of expenditures in support of 171 WtW clients served.

Our audit objectives were to assess SDA-V & TPF’s internal controls and compliance with
applicable provisions of WtW legislation, regulations, Office of Management and Budget
(OMB) Circulars, and specific grant requirements in order to obtain an understanding and
determine that internal controls were in place to properly and adequately prepare the SDA-V &
TPF’s Cumulative Quarterly Financial Status Report (QFSR); and to express an opinion on the
expenditures, income and participants served as reported on the SDA-V & TPF’s QFSR for the
period ended March 31, 2002, based on our audit.

To answer the audit objectives, we interviewed SDA-V & TPF’s key officials involved in the
WtW initiative and reviewed supporting documentation provided by these officials. Our audit
produced the following findings:

       C       unallowable costs totaling $521,152;
       C       questionable costs of $2,137,574 due to inaccurate QFSR expenditure allocations;
       C       unreported program income of $959;
       C       inadequate reporting of number of participants served; and
       C       two misclassified participants.

In summary, we recommend that the Assistant Secretary for Employment and Training
Administration (ETA):

       C       recover $521,152 resulting from unallowable costs,
       C       ensure that SDA-V & TPF transfer funds of $11,041 to Kansas Department of
               Human Resources (KDHR) and record a receivable from ETA due to KDHR of
               $35,053;
       C       recover $2,137, 574 resulting from inaccurate QFSR expenditure allocations;
       C       recover $959 of program income; and
       C       ensure that corrections to lines 10, 10a and 10b are made to the QFSR to report
               183, 123 and 60 participants, respectively.

SDA-V & TPF terminated the WtW program as of March 15, 2002, and began the process of
ceasing operations of the grant. Two employees remained and received salaries through
June 30, 2002. Fieldwork was concluded June 27, 2002. As of June 30, 2002, all activity of
SDA-V & TPF was to have ceased.


DOL-OIG Report No. 05-03-001-03-386
SDA-V & TPF Welfare-to-Work Competitive Grant


The two entities that collectively comprise the grantee responded separately to the draft report.
The responses from the Local Workforce Investment Board, previously SDA-V, and the
Executive Director of TPF at the time the grant ended are summarized within each finding and
recommendation, beginning on page 10. Their complete responses are included in Appendix A.
These responses provided no additional information. As such, the recommendations above
remain unchanged.




DOL-OIG Report No. 05-03-001-03-386                                                        2
SDA-V & TPF Welfare-to-Work Competitive Grant




                                      BACKGROUND

Welfare -to-Work Legislation

In August 1996, the Personal Responsibility and Work Opportunity Reconciliation Act reformed
the nation's welfare laws. A system of block grants to the states for Temporary Assistance for
Needy Families (TANF) was created, changing the nature and provision of welfare benefits in
America. Moving people from welfare to work is one of the primary goals of Federal welfare
policy.

In August 1997, President Clinton signed the Balanced Budget Act of 1997. This legislation
amended certain TANF provisions of the Social Security Act and authorized the Secretary of
Labor to provide WtW grants to states and local communities for transitional assistance to move
the hard-to-employ TANF welfare recipients and eligible non-custodial parents into unsubsidized
jobs and economic self- sufficiency.

In November 1999, as part of the Consolidated Appropriations Act for Fiscal Year 2000, the
“Welfare-to-Work and Child Support Amendments of 1999” were enacted. The changes
included in this legislation allow WtW grantees to more effectively serve both long-term welfare
recipients and noncustodial parents of low- income children. WtW reporting requirements were
also streamlined. Specific changes included new eligibility requirements, effective
January 1, 2000, which expanded the pool of eligible clients for both targeted groups [general
eligibility/noncustodial parents (primary eligibility) and other eligibles] as well as allowing
6 months of vocational education and job training prior to “work- first” activities.


Summary of SDA-V & TPF’s WtW Competitive Grant:

The DOL, ETA awarded a $3,767,968 WtW Competitive Grant to SDA-V & TPF on
October 1, 1999. The grant’s period of performance was October 1, 1999 through April 1, 2002.
The scope of work, as of Modification No. 1, which was effective September 25, 2000, required
SDA-V & TPF to serve a minimum of 302 participants, of which 40 percent (or 120) were to be
placed in unsubsidized employment and 6 months after attaining unsubsidized employment, at
least 50 percent (or 60 participants) of those were to be employed in unsubsidized employment at
the 6 month follow- up.

Other changes included in Modification No. 1 were the realignment of Budget amounts between
the various line items of the original grant application, increasing the number of service areas
from 4 to 17, and to amend Part IV – Special Conditions Item # 6 – to increase the consultant
fees from $400 per day to $450 per day.

Shortly after the grant was awarded, the grantee, SDA-V and TPF, entered into an agreement
with KDHR. The agreement states it is “for the purpose of accepting funds under this grant, for
the provision of grant management services, and for the WtW coordination of services.”


DOL-OIG Report No. 05-03-001-03-386                                                      3
SDA-V & TPF Welfare-to-Work Competitive Grant


As fiscal agent for the grant, KDHR was given authority to draw down and disperse funds to
TPF, on request. TPF requests were to be submitted to SDA-V and co-signed before being
forwarded to the State Fiscal Unit of KDHR for processing and payment. KDHR was also
required to monitor this project at least every 6 months, and provide for an independent audit,
using grant funds. Finally, KDHR was to provide intake and assessment of participants and refer
those who could be best served by WtW to TPF. The coordination of services was necessary
because participants were receiving services from both the KDHR WtW formula grant and this
WtW competitive grant.


                                PRINCIPAL CRITERIA

The DOL issued regulations found in 20 CFR 645, to implement the provisions of the Balanced
Budget Act of 1997. Interim Regulations were issued on November 18, 1997. Final Regulations
were issued on January 11, 2001, and became effective April 13, 2001. Also, on April 13, 2001,
a new Interim Final Rule became effective, implementing the Welfare-to-Work and Child
Support Amendments of 1999. This resulted in changes in the participant eligibility
requirements for competitive grants, effective January 1, 2000.

As a nonprofit, SDA-V & TPF is required to follow general administrative requirements
contained in OMB Circular A-110, which is codified in DOL regulations at 29 CFR 95, and
OMB Circular A-122 requirements for determining the allowability of costs.



             OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our audit objectives were to:

       (1) assess SDA-V & TPF’s internal controls;

       (2) assess SDA-V & TPF’s compliance with applicable provisions of WtW legislation,
           regulations, OMB Circulars, and specific grant requirements; and

       (3) express an opinion on the expenditures, income and participants served as reported on
           the SDA-V & TPF’s QFSR as of March 31, 2002.


Scope and Methodology

We performed a financial and compliance closeout audit for the period October 1, 1999 through
March 31, 2002.



DOL-OIG Report No. 05-03-001-03-386                                                      4
SDA-V & TPF Welfare-to-Work Competitive Grant


Financial

We audited $2,658,726 of claimed expenditures as reported on the QFSR dated March 31, 2002.
The QFSR reported Federal expenditures which included salaries, fringe benefits, equipment,
administrative costs, supplies, travel, and indirect costs incurred by SDA-V & TPF, as well as
the contractual costs for the subgrantee, KDHR.

Using a judgmental sample, we audited the salaries, fringe benefits, and supportive services
incurred by SDA-V & TPF as well as a sample of expenditures for KDHR. Using a statistical
sampling plan and methodology, we audited the remainder of SDA-V & TPF’s claimed costs.
However, the questioned costs within our sample were not projected to the universe of claimed
costs. We tested 937 transactions totaling $1,223,060.

We reviewed SDA-V & TPF’s compliance with Federal requirements pertaining to the WtW
Competitive Grant. SDA-V & TPF provided us with an audit report prepared in accordance with
OMB Circular A-133. This audit report was the only other audit previously performed on the
grant and covered the period of October 1, 1999 through December 31, 2000. The Report on
Internal Control Over Financial Reporting (in Accordance with GAAS) and the Report on
Compliance with Requirements Applicable to The Federal Program and Internal Control Over
Compliance identified questionable expenditures but did not report any material weaknesses.
We relied on the auditors’ assessment of internal control but also performed additional
evaluations of SDA-V & TPF’s system of internal accounting control as it affected the QFSR.

Compliance (Eligibility)

We reviewed 53 randomly selected client files from SDA-V & TPF’s database which contained
183 WtW clients served. We tested both the client’s WtW eligibility and designated eligibility
target group [general eligibility/noncustodial parents (primary eligibility) - 70 percent or other
eligibles – 30 percent] for all 53 reviewed client files. All 53 participants were served after
January 1, 2000.

Our audit was performed in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards as issued by the Comptroller General of
the United States. Fieldwork began May 20, 2002, and concluded on June 27, 2002.




DOL-OIG Report No. 05-03-001-03-386                                                         5
SDA-V & TPF Welfare-to-Work Competitive Grant



                                                                           Carmichael
                                                                        Brasher Tuvell
Certified Public Accountants                                              & Company


Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210


                            INDEPENDENT AUDITORS’ REPORT


We have audited the accompanying WtW Competitive Grant Cumulative Quarterly Financial
Status Report (QFSR) of Private Industry Council Service Delivery Area - V and Training Plus
Foundation (hereafter referred to as SDA-V & TPF) – Grant number Y78669008160 – for the
period October 1, 1999 through March 31, 2002, for the U.S. Department of Labor, Office of
Inspector General. Amounts reflected in the QFSR are the responsibility of SDA-V & TPF’s
management. Our responsibility is to express an opinion on the expenditures, income and
participants served as reported on the QFSR based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whe ther the QFSR is free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the QFSR. An
audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall QFSR presentation. We believe that our audit and
the report of the other auditors provide a reasonable basis for our opinion.

The QFSR was prepared for the purpose of complying with and in conformity with the grant
reporting requirements stipulated in the WtW Competitive Grant regulations of the U.S.
Department of Labor as described in Note 1, which is a comprehensive basis of accounting other
than generally accepted accounting principles. The QFSR is not intended to be a presentation of
SDA-V & TPF’s assets and liabilities or revenues and expenses, but rather a presentation of only
those items reported on the QFSR on the basis of accounting described in Note 1.

As discussed in the Findings and Recommendations section of this report, the lack of adequate
internal controls necessary to properly report the expenditures, income and participant data on
the QFSR resulted in the reporting of unallowable costs, noncompliance with grant requirements,
and misclassified and inadequate documentation of participants.


DOL-OIG Report No. 05-03-001-03-386                                                      6
SDA-V & TPF Welfare-to-Work Competitive Grant


Opinion on Cumulative Quarterly Financial Status Report

In our opinion, because of the matters identified above and the $2,658,726 of questioned costs
(see Findings and Recommendations), line 2, Federal Expenditures, of the QFSR, does not
present fairly, in all material respects, the total allowable incurred costs as cited for the period
from October 1, 1999 through March 31, 2002, in conformity with the aforementioned basis of
accounting. Due to the matters described in the Findings and Recommendations Section of this
report, we are unable to express an opinion as to the allocation of incurred costs between the
functions of programmatic and administrative costs as reported on the QFSR lines 3-5, and the
allocation of expenses among the categories of participants served as reported on the QFSR lines
6a and b. Additionally, in our opinion, line 10 of the QFSR which reported 171 participants
served was not fairly presented, as 183 participants were served.

Report on Internal Control

In planning and performing our audit of SDA-V & TPF’s QFSR for the period October 1, 1999
through March 31, 2002, we considered its internal control by obtaining an understanding of
SDA-V & TPF’s internal control and assessed control risks in order to determine our auditing
procedures for the purpose of expressing our opinion on the QFSR and not to provide assurance
on internal control. As part of our understanding of the SDA-V & TPF’s internal control, we
reviewed a report on internal control prepared by Joseph Melookaran, CPA, as described below.
Reportable conditions involve matters coming to our attention relating to significant deficiencies
in the design or operation of the internal control that, in our judgment, could adversely affect the
organization’s ability to record, process, summarize and report financial data consistent with the
assertions of management. Our consideration of internal control would not necessarily disclose
all matters in the internal control that might be reportable conditions under standards established
by the American Institute of Certified Public Accountants.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.

In obtaining our understanding of SDA-V & TPF’s internal control, we reviewed an audit report
prepared in accordance with OMB Circular A-133 “Audits of States, Local Governments, and
Non-Profit Organizations.” This audit report was prepared by Joseph Melookaran, CPA and was
the most recent available covering the period October 1, 1999 through December 31, 2000. The
audit report reported weaknesses which we noted during our closeout audit of SDA-V & TPF.
Although we relied on this prior auditor's assessment of internal control, we performed a limited
evaluation of SDA-V & TPF’s system of internal control as it affected the accumulation and
reporting of financial and statistical data on the QFSR.

We noted several matters involving internal control and QFSR preparation that we consider to be
material weaknesses as defined above. The following internal control weaknesses are explained
in detail within the Findings and Recommendations section of this report, which are:



DOL-OIG Report No. 05-03-001-03-386                                                          7
SDA-V & TPF Welfare-to-Work Competitive Grant




   •   unallowable costs;
   •   noncompliance with grant requirements; and
   •   misclassified and inadequate documentation of participants.

Report on Compliance

We have also audited SDA-V & TPF’s compliance with the requirements governing the WtW
Competitive Grant. Compliance with laws, regulations, contracts, and grants applicable to
SDA-V & TPF is the responsibility of SDA-V & TPF’s management. To obtain reasonable
assurance about whether the QFSR is free of material misstatements, we performed tests of
SDA-V & TPF’s compliance with certain provisions of laws, regulations, grants, and contracts.
However, providing an opinion on overall compliance was not the objective of our audit.
Accordingly, we do not express such an opinion.

The results of our tests disclosed instances of noncompliance that are required to be reported
under Government Auditing Standards and which are described in Finding 2 in the Findings and
Recommendations section of this report.

This report is intended for the information and use of the U.S. Department of Labor,
Employment and Training Administration and SDA-V & TPF and is not intended to be and
should not be used by anyone other than these specified parties.

CARMICHAEL, BRASHER, TUVELL & COMPANY




Atlanta, Georgia
June 27, 2002




DOL-OIG Report No. 05-03-001-03-386                                                    8
SDA-V & TPF Welfare-to-Work Competitive Grant




                                  U. S. DEPARTMENT OF LABOR
                                Employment and Training Administrative
                                   WTW COMPETITIVE GRANT
                                Cumulative Quarterly Financial Status Report
                         REPORTING PERIOD: October 1, 1999 through March 31, 2002
GRANT NO: Y78669008160                                                        Date Submitted: 05/07/2002



Reporting Grantee Information                                         Grantee Contact Information
                     Grantee Name: PRIVATE INDUSTRY COUNCIL SDA-V A ND TRAINING PLUS
Address: 302 North Locust                                             Address: 302 North Locust
City: Pittsburg    State: KS    Zip: 66762                            City: Pittsburg   State: KS    Zip: 66762


Section I. GRANT TOTAL
1. Federal Grant                                                                                $ 3,767,968
2. Federal Expenditures                                                                             2,658,726
3. Federal Administrative Expenditures (15% Max)                                                     363,486
4. Federal Technology/Computerization Expenditures                                                    45,107
5. Federal Program Expenditure                                                                      2,250,133
6. Expenditures for:
   a. General eligibility/Non-custodial Parents Category                                            2,096,114
   b. Other Eligibles (30% Maximum) Category                                                         562,612
7. Unliquidated Obligations                                                                                   0
Section II. FEDERAL PROGRAM INCOME
8. Earned                                                                                       $          0
9. Expended                                                                                                   0
Section III. FEDERAL PARTICIPANT SUMMARY
10. Total Participants Served                                                                            171
    a. General Eligibility/Non-custodial Parents Category                                                125
    b. Other Eligibles Category                                                                           46




The accompanying notes are an integral part of this statement.


                                         See Independent Auditors’ Report.




DOL-OIG Report No. 05-03-001-03-386                                                                       9
SDA-V & TPF Welfare-to-Work Competitive Grant



            Notes to the Cumulative Quarterly Financial Status Report


Note 1 – Summary of Significant Accounting Policies

Entity

The U.S. Department of Labor awarded to Private Industry Council SDA-V and Training Plus
Foundation, $3,767,968, for a Welfare-to-Work (WtW) Competitive Grant. The grant’s original
period of performance was October 1, 1999 through April 1, 2002. The grantee voluntarily
terminated their grant agreement as of March 15, 2002. The QFSR reports expenditures, income
and the number of participants served through March 31, 2002.


Basis of Accounting

The Quarterly Financial Status Report was prepared by the SDA-V and TPF in accordance with
the applicable provisions of WtW legislation, regulations, Office of Management and Budget
(OMB) Circulars, and specific grant requirements. These provisions generally require that grant
income earned or received and expenditures paid or incurred as of the report date, be reported on
the QFSR.

Grant expenditures are required to be reported in varying categories such as administrative
expenditures, technology/computerization expenditures, program expenditures and as expended
per category of participant.




DOL-OIG Report No. 05-03-001-03-386                                                       10
SDA-V & TPF Welfare-to-Work Competitive Grant



                             Findings and Recommendations

                                      1. Unallowable Costs

SDA-V & TPF’s QFSR included unallowable costs of $521,152.

A. Unsupported Salary Costs

Timesheets were not provided for three employees during the period from October 1, 1999
through July 2001. The cumulative salaries were $118,948, $56,374, and $66,260 and associated
fringe benefits totaled $26,336. Two of these three employees were former management of
SDA-V & TPF. SDA-V & TPF’s personnel manual under the former Director did not require
timesheets prior to receipt of a paycheck. After the current Director took charge of SDA-V &
TPF on July 16, 2001, a revised personnel manual was instituted that required timesheets for all
personnel.

OMB CircularA-122, Attachment B (7)(m) states in part:

       (1) Charges to awards for salaries and wages, whether treated as direct
           costs or indirect costs, will be based on documented payrolls approved
           by a responsible official(s) of the organization. The distribution of
           salaries and wages to awards must be supported by personnel activity
           reports. . . .

       (2) Reports reflecting the distribution of activity of each employee must be
       maintained for all staff members (professionals and nonprofessionals)
       whose compensation is charged, in whole or in part, directly to awards. . . .
       Reports maintained by non-profit organizations to satisfy these
       requirements must meet the following standards:
               (a) The reports must reflect an after-the-fact determination of the
               actual activity of each employee. Budget estimates (i.e., estimates
               determined before the services are performed) do not qualify as
               support for charges to awards.

               (b) Each report must account for the total activity for which
               employees are compensated and which is required in fulfillment of
               their obligations to the organization.

               (c) The reports must be signed by the individual employee, or by a
               responsible supervisory official having first hand knowledge of the
               activities performed by the employee, that the distribution of
               activity represents a reasonable estimate of the actual work
               performed by the employee during the periods covered by the
               reports.




DOL-OIG Report No. 05-03-001-03-386                                                     11
SDA-V & TPF Welfare-to-Work Competitive Grant


               (d) The reports must be prepared at least monthly and must
               coincide with one or more pay periods.

Salary costs in aggregate of $267,918 are questioned due to the lack of reports supporting the
salaries costs charged to the grant that are required to be maintained by OMB Circular A-122,
Attachment B (7)(m).

Grantee Responses

TPF management indicated that one of the three employees did not complete timesheets under
direction of the former Executive Director and were told timesheets were not needed for
administrative personnel. TPF management indicated it was impossible to support, much less
reconstruct, the second and third employee’s undocumented salary and fringe costs. TPF
management added that the issue of unsupported salary costs could have been avoided had
KDHR given technical assistance and oversight to TPF.

SDA-V indicated that KDHR staff had informed TPF staff of the State of Kansas’ fiscal policies
and procedures manual that required timesheets be maintained on staff hired under the grant.


B. Severance Pay

SDA-V & TPF paid severance pay of $4,089 to five employees in April and May of 2002. These
five employees each had less than a year of service. The employee manual permits severance
pay only when the employee had a year or more of service. These costs were accrued on the
QFSR as of March 31, 2002.

OMB Circular A-122, Attachment B, Section 49(a) states in part, “. . . Costs of severance pay are
allowable only to the extent . . . it is required by (i) law, (ii) employer-employee agreement, (iii)
established policy . . . or (iv) circumstances of the particular employment.”

Severance pay of $4,089 is questioned, as it was not required to be paid by one of the four
criteria enumerated in OMB Circular A-122, Attachment B, Section 49(a).

Grantee Responses

TPF management indicated that the grant officer had orally approved the payment of severance
pay to specified employees.

SDA-V indicated that TPF had not provided them with a copy of their employee manual, that
they had no responsibility in approving draw downs from the grant officer and were unaware of
the severance disbursements to employees.




DOL-OIG Report No. 05-03-001-03-386                                                           12
SDA-V & TPF Welfare-to-Work Competitive Grant


C. Sick Pay

Sick pay of $1,147 for one employee was paid July 11, 2001, for sick leave of approximately
5 days. SDA-V & TPF’s personnel manual required that sick leave in excess of 3 days be
accompanied by a doctor’s letter and no such letter was provided in the employee’s personnel or
payroll records.

OMB Circular A-122, Attachment A, Section A states in part:

       2.      . . . To be allowable under an award, costs must meet the following
               general criteria:
               a.       Be reasonable for the performance of the award and be
                        allocable thereto under these principles. . . .
               g.       Be adequately documented. . . .

       4.      Allocable costs.
               a.     A cost is allocable to a particular cost objective, . . . in
                      accordance with the relative benefits received. . . .

Sick pay of $1,147 is unallowable as the costs were not adequately documented by the employee
as required by the grantee and OMB Circular A-122, Attachment A, Section A.

Grantee Responses

TPF management indicated that it was impossible to support this cost.

SDA-V indicated that without specific knowledge of the TPF employee manual and prior notice
of funds drawn down, they were unaware of this transaction.


D. Purchase of Vehicle

In December 2000, SDA-V & TPF paid $1,274 to an automobile dealer on behalf of a
participant. The payment, which included $50 in late fees and $50 in repossession fees,
represented the balance owed on a vehicle purchased by the participant. The participant
subsequently reimbursed SDA-V & TPF a total of $300. During our audit, we were not provided
evidence of the existence or possession of the vehicle by the participant or SDA-V & TPF.

The Grant Agreement, Part I, Statement of Work, Paragraph 11, states: “It should be noted that it
is the Department of Labor’s policy that WtW funds cannot be used to purchase a car for use by
an individual, nor can WtW funds be used to provide loans for purchasing or titling cars for
individuals.”

The payment made for this vehicle of $974 is unallowable in accordance with the provision of
the Grant Agreement.




DOL-OIG Report No. 05-03-001-03-386                                                      13
SDA-V & TPF Welfare-to-Work Competitive Grant


Grantee Responses

TPF management indicated that approval for purchase of the vehicle was received verbally and
by email from the DOL Grant Officer.
The van was repossessed by TPF from the client, who moved and then disappeared. The engine
was removed while the van was in storage. The vehicle’s current location is unknown, although
TPF is in possession of the title, which is in the client’s name. Thus, it would be impossible to
sell or otherwise dispose of the vehicle. TPF management believes the value of the van, at its
best, was approximately $500. Without an engine, the value is approximately $50.

SDA-V indicated that the matter was brought to their attention twice: once as a result of the audit
by Joseph Melookaran and once by KDHR. They further stated that it was reported to them that
DOL Regional had approved the initial purchase.

E. Undocumented Expenditures

Records to support three payments, totaling $696, were not documented. Receipts or other
evidence of the validity of the expense could not be provided and are therefore unallowable. The
general ledger reported one payment was made to Office Depot, dated May 11, 2000, for
materials and supplies in the amount of $334. Two payments were reimbursements to
employees for travel expenses. However, expense reports could not be located. The first
expense report would have been for the period January 17, 2002 to February 8, 2002, in the
amount of $248 and the second expense report would have been for the period January 26, 2002
to February 8, 2002, in the amount of $114.

SDA-V & TPF entered into a contract for mentoring services with the Area Agency on Aging
(AAA). The contract agreement requires AAA to provide monthly logs documenting the
services provided to WtW referrals and for AAA to request funds for reimbursement of expenses
using forms provided by SDA-V & TPF. Logs documenting the services provided to WtW
referrals could not be located in SDA-V & TPF’s records. AAA was paid $29,790 for mentoring
services for which documentation to support the effort expended was either not required by
SDA-V & TPF prior to or not maintained by SDA-V & TPF after payment to AAA.

The $696 in undocumented expenses and $29,790 in unsupported contract payments are
unallowable as adequate documentation to support the expenditures was not maintained as
required by OMB Circular A-122, Attachment A, Section A (2)(g) which is quoted above.

Grantee Responses

TPF management indicated that they were without knowledge of the undocumented expenditures
totaling $334. For travel expenditure reimbursements of $248 and $114, the employees routinely
traveled as a part of their positions and, therefore, the undocume nted expenditures should be
approved. TPF management indicated it was an oversight by prior TPF management not to
obtain copies of logs and documentation of AAA expenditures.

SDA-V did not respond to this finding.



DOL-OIG Report No. 05-03-001-03-386                                                        14
SDA-V & TPF Welfare-to-Work Competitive Grant


F. Attorney Fees

Attorney fees of $800 were claimed on the QFSR for the organization costs of SDA-V & TPF.
According to Kansas state records, Training Plus Foundation was incorporated on November 8,
1999. The payment of organization costs after the awarding of a grant, with grant funds, is in
violation of OMB Circular A-122, Attachment B (31), which states:

       Organization costs. Expenditures, such as incorporation fees, brokers'
       fees, fees to promoters, organizers or management consultants, attorneys,
       accountants, or investment counselors, whether or not employees of the
       organization, in connection with establishment or reorganization of an
       organization, are unallowable except with prior approval of the awarding
       agency.

The $800 paid to an attorney to incorporate the grantee is unallowable.

Attorney fees of $25,000 were claimed on the QFSR for retainer fees. The attorney fees claimed
on the QFSR were accrued but not yet paid to the attorney. The Grant Official did not approve
the $25,000 claimed on the QFSR and this amount was not reimbursed to SDA-V & TPF.

SDA-V & TPF calculated the amount based on $2,500 per ten employees terminated giving the
explanation that the terminated employees could sue and the business insurance policy may not
cover the lawsuits. OMB Circular A-122, Attachment B (39), states in part:

       a.      Costs of professional and consultant services . . . are allowable . . .
               when reasonable in relation to the services rendered and when not
               contingent upon recovery of the costs from the Federal
               Government.
       b.      In determining the allowability of costs in a particular case, no
               single factor or any special combination of factors is necessarily
               determinative. However, the following factors are relevant.
               (1) The nature and scope of the service rendered in relation to the
               service required.
       c.      In addition to the factors in subparagraph b, retainer fees to be
               allowable must be supported by evidence of bona fide services
               available or rendered.

The retainer fees of $25,000 have not been paid and are contingent upon future lawsuits being
filed, which is uncertain. As such, these costs are unallowable.

Grantee Responses

TPF management indicated that attorney’s fees of $800 could not be supported. TPF
management indicated that the $25,000 in attorney’s fees had not been paid, but were authorized
by OMB Circular A-122.



DOL-OIG Report No. 05-03-001-03-386                                                      15
SDA-V & TPF Welfare-to-Work Competitive Grant


SDA-V indicated that they were unaware that legal fees were requested on behalf of the grant
and that TPF reported to the SDA-V that they were incorporated when notified of the grant
award.


G. Unverifiable Fixed Assets

SDA-V & TPF did not maintain an adequate inventory system to track assets purchased with
WtW funds. An inventory of assets was not maintained in a fashion that made it possible to
confirm the existence of assets to the cost records for all assets. As such, the existence of certain
assets, paid for with grant funds, could not be established.

SDA-V & TPF’s unverifiable fixed assets is $92,588 which was determined by using $303,843
which was reported as total fixed assets on SDA-V & TPF’s March 31, 2002, balance sheet and
subtracting training modules costing $211,255 which were transferred to KDHR at grant
termination.

29 CFR 95.34(f) states in part:

       (1) Equipment records shall be maintained accurately and shall include the
       following information: (i) A description of the equipment; (ii)
       Manufacturer’s serial number, model number, Federal stock number,
       national stock number or other identification number; (iii) Source of the
       equipment, including the award number; (iv) Whether title vests in the
       recipient or the Federal Government (v) Acquisition date (or date
       received, if the equipment was furnished by the Federal Government) and
       cost . . . (vii) Location and condition of the equipment and the date the
       information was reportable; (viii) Unit acquisition cost; and, (ix) Ultimate
       disposition data, including date of disposal and sales price or the method
       used to determine current fair market value.

The existence of fixed assets of $92,588 could not be verified with records required to be
maintained in accordance with 29 CFR 95.34 which is quoted above.

Grantee Responses

TPF management indicated that the equipment was available for review and the grant accountant
would have helped the auditors reconcile the equipment inventory with the actual inventory.

SDA-V indicated that TPF was notified of the requirement to follow the State of Kansas’ fiscal
policies and procedures manual from the beginning and copies of the manual were provided to
TPF administrators.




DOL-OIG Report No. 05-03-001-03-386                                                          16
SDA-V & TPF Welfare-to-Work Competitive Grant


H. Procurement

1. Nonessential Purchase

Four training modules pertaining to digital photography, imaging, music, and non- linear video
with a cost of $16,100 were among modules purchased by SDA-V & TPF in August 2000.
These four training modules did not relate to the purpose of the grant, which is restoring hard to
employ welfare-recipients to gainful employment. As the training modules did not relate to the
purpose of the grant and no relative benefit was received, as required by OMB Circular A-122,
Attachment A, Section A, which is quoted on page 13, $16,100 is unallowable.

Grantee Responses

TPF management indicated that the training modules unrelated to the grant were exchanged with
the vendor for credit towards the purchase of other essential modules.

SDA-V indicated that no inventory of any purchase was available to them other than what was in
the original grant application.


2. Purchases without Grant Officer Approval

SDA-V & TPF purchased four training modules totaling $31,650, in July 2001. Each training
module related to the purpose of the grant and had a unit cost greater than $5,000. The vendor
from which the modules were purchased was the same vendor that the SDA-V & TPF had
stipulated it would purchase its original training modules from in its original grant proposal.
However, the grant proposal did not specify which training modules were to be purchased. After
the initial purchase of the training modules, SDA-V & TPF should have requested approval from
the Grant Officer to procure these additional training modules. Part IV (2) of the Grant
Agreement states: “Awardees must receive prior approval from the DOL ETA Grant Officer
for the purchase and/or lease of any equipment with a per unit acquisition cost of $5,000 or
more, and a useful life of more than one year.” [Emp hasis added.]

Grantee Responses

TPF management indicated that this issue had been thoroughly discussed and resolved to DOL-
ETA’s satisfaction in response to an interim audit report.

SDA-V reiterated that TPF administrators were provided copies of the State of Kansas’ fiscal
policies and procedures manual identifying the need to procure bids for purchases. SDA-V also
indicated that no inventory of any purchase was available to them other than what was in the
original grant application.




DOL-OIG Report No. 05-03-001-03-386                                                         17
SDA-V & TPF Welfare-to-Work Competitive Grant


3. Purchases were Not Competitively Procured

SDA-V and TPF did not competitively procure training modules totaling $82,050. This amount
consists of the four modules, discussed in Finding 2 above, totaling $31,650, and $50,400 for
training modules that had a per unit cost of less than $5,000. The purchase of these additional
training modules was made approximately one week prior to the change of SDA-V & TPF
Directors, which took place on July 16, 2001.

29 CFR 95.43, states in part:

       All procurement transactions shall be conducted in a manner to provide, to
       the maximum extent practical, open and free competition. . . . Awards
       shall be made to the bidder or offeror whose bid or offer is responsive to
       the solicitation and is most advantageous to the recipient, price, quality
       and other factors considered.

Training modules totaling $98,150 are unallowable.

Grantee Responses

TPF management indicated that the purchase of DEPCO modules was specifically outlined in the
grant proposal and it was understood that competitive procurement was waived by the prior
DOL-ETA grant GOTR or other officials. This matter was also discussed in response to the
interim audit report.

SDA-V reiterated that TPF administrators were provided copies of the State of Kansas’ fiscal
policies and procedures manual identifying the need to procure bids for purchases. SDA-V also
indicated that no inventory of any purchase was available to them other than what was in the
original grant application.

Summary

In summary, we questioned a total of $521,152 as follows:

                                                                       Amount
                Costs Questioned                                     Questioned
                Unsupported Salary Costs                              $267,918
                Severance Pay                                             4,089
                Sick Pay                                                  1,147
                Purchase of Vehicle                                         974
                Undocumented Expenditures                               30,486
                Claimed Attorney Fees                                   25,800
                Unverifiable Fixed Assets                               92,588
                Procurement                                             98,150
                Total Questioned Costs                                $521,152




DOL-OIG Report No. 05-03-001-03-386                                                      18
SDA-V & TPF Welfare-to-Work Competitive Grant


Recommendation

We recommend that the Assistant Secretary for Employment and Training recover questioned
costs of $521,152.

Auditor’s Conclusion

Based on SDA-V and TPF’s responses, as described in each subsection above, no new
information was provided that would alter or resolve the recommendation. As such, the above
recommendation remains unchanged.




DOL-OIG Report No. 05-03-001-03-386                                                   19
SDA-V & TPF Welfare-to-Work Competitive Grant


                          2. Noncompliance with Grant Requirements


A. QFSR Was Not Supported by SDA-V & TPF’s Financial Records

SDA-V & TPF’s financial records were incomplete. The financial records did not accurately
reflect the amounts reported on the QFSR. SDA-V & TPF’s financial records did not accurately
include grant proceeds, revenues, payables or expenditures of subgrantees. No reconciliation
was performed between grant proceeds and grant expenditures. As a result, the following
occurred:

1.     SDA-V & TPF did not reconcile the proceeds received from ETA to the drawdowns
       requested from ETA or the amount s reported on the QFSR. SDA-V & TPF conveyed
       their estimated cash requirements to the KDHR based on estimated need. KDHR then
       drew down funds from DOL for SDA-V & TPF monthly. KDHR drew down a higher
       amount than SDA-V & TPF requested due to rounding up of expenses. KDHR, via wire
       transfer, transferred to SDA-V & TPF the amount of funds SDA-V & TPF had requested.
       As of March 31, 2002, the funds transferred to SDA-V & TPF by KDHR exceeded
       SDA-V & TPF’s expenditures by $11,041.

2.     SDA-V & TPF’s financial records did not reflect the total grant drawdowns, but instead
       only reflected the funds transferred from KDHR to SDA-V & TPF. As of
       March 31, 2002, KDHR had not drawn down $24,012 reported on the QFSR as
       expenditures under the grant. Additionally, KDHR had incurred expenditures, as a
       subcontractor, under the grant of $578,577, although only $543,524 was retained by
       KDHR. Consequently, the amount due to KDHR as of March 31, 2002, under the grant
       was $35,053, which is comprised of the $24,012 not drawn by KDHR from DOL and the
       $11,041 in excess funds transferred to SDA-V & TPF. SDA-V & TPF’s financial records
       did not report the funds receivable or payable under the grant. These amounts may have
       changed subsequent to the end of the audit period of March 31, 2002.

3.     SDA-V & TPF’s financial records did not support the QFSR as of March 31, 2002. The
       QFSR included accruals for expenses incurred by SDA-V & TPF as of March 31, 2002,
       but not paid as of that date. SDA-V & TPF maintained its financial records on the cash
       basis of accounting; however, the QFSR was reported on the accrual basis of accounting.
       Adequate records to support the cash to accrual conversion were not maintained. The
       amounts reported on the QFSR were computed by SDA-V & TPF by adding the
       expenditures recorded in the financial records through March 31, 2002, to the
       expenditures in SDA-V & TPF’s financial records for the period April 1, 2002, through
       April 16, 2002.

4.     SDA-V & TPF earned interest income of $1,242 during the grant period from
       October 1, 1999 through March 31, 2002. SDA-V & TPF returned $283 of interest
       earned in March 2001 to KDHR, leaving $959 of interest income which is payable to
       KDHR. Additionally, program income was not reported on the QFSR.




DOL-OIG Report No. 05-03-001-03-386                                                    20
SDA-V & TPF Welfare-to-Work Competitive Grant


B. Inaccurate QFSR Expenditure Allocations

Administrative and Program Costs

SDA-V & TPF’s method for allocating costs between administrative and program costs was not
supported by adequate documentation. The basis for the allocation of salaries of certain
management employees between program and administrative costs from October 1, 1999
through September 30, 2001 was not properly documented by time sheets. SDA-V & TPF
employees were required to submit detailed time sheets after October 2001; however, the
timesheets were still not utilized to record and allocate costs between program and administrative
expenses in SDA-V & TPF’s financial records.

20 CFR 645.235 states in part:

       (a)(2) Competitive grants. The limitation on expenditures for
       administrative purposes under WtW competitive grants will be specified
       in the grant agreement but in no case shall the limitation be more than
       fifteen percent (15%) of the grant award. . . .
       (d)(2) Personnel and related non-personnel costs of staff who perform both
       administrative functions specified in paragraph (c) of this section and
       programmatic services or activities are to be allocated as administrative or
       program costs to the benefiting cost objectives/categories based on
       documented distributions of actual time worked or other equitable cost
       allocation methods.

SDA-V & TPF did not maintain its accounting system or records in a manner which would allow
the proper reporting of costs as program or administrative in accordance with 20 CFR 645.235.

Participant Cost Reporting

WtW regulations, as stated below, require program costs be reported separately for the two
categories of participants who are served. The two categories are, first, the 70 percent category
which is for the general eligibility/noncustodial participants and the second is the 30 percent or
other eligibles category as described in 20 CFR 645.211. SDA-V & TPF’s method of allocating
program costs to the two categories was to multiply the percentage of cumulative, grant-to-date
participants as a component of total participants served, from each category by the total program
costs.

Additionally, SDA-V & TPF did not obtain from the subgrantee, KDHR, the detail of KDHR’s
grant expenditures. As such, SDA-V & TPF did not have the necessary information to properly
allocate KDHR’s program costs as to the category of participants served.




DOL-OIG Report No. 05-03-001-03-386                                                        21
SDA-V & TPF Welfare-to-Work Competitive Grant


20 CFR 645.211 states in part:

       An operating entity . . . may spend not more than 30 percent of the WTW funds allocated
       to or awarded to the operating entity to assist individuals who meet the ‘other eligibles’
       eligibility requirements…

The requirement does not apply to the proportion of WtW participants served; rather, as noted
above, it applies to the percentage of WtW funds expended on the participants in each category
of eligibility. SDA-V & TPF did not maintain its financial records in a manner that would allow
the reporting of costs per category of participants.

Summary

Because of the grantee’s noncompliance with grant requirements for reporting administrative,
program and participant costs, all reported costs are unallowable. Of the total reported costs of
$2,658,726, $521,152 was determined unallowable in Finding 1. The remaining reported costs
of $2,137,574 are also questionable. Additionally, SDA-V & TPF did not remit program income
of $959 to DOL.

Grantee Responses

TPF management indicated that prior TPF management had no experience relevant to the proper
administration of this grant. As this fact was well known to the KDHR director, who was
contracted to provide technical assistance, oversight and service to the grant as a whole, ultimate
responsibility for noncompliance with grant requirements falls on the shoulders of KDHR, its
director and employees who were contracted by the grantee to provide technical assistance,
oversight, etc.

The prior TPF management did not know, and was completely unaware, that substantially all of
the data required to complete an accurate QFSR were being tracked by KDHR. TPF
management was hand-calculating the data necessary to complete a QFSR. In some cases, good
faith estimates were made to complete line items. TPF management dedicated significant time to
completing QFSRs in what they thought to be a correct and accurate fashion.

The prior TPF management did not employ a competent grant accountant or payroll employee.
When new TPF management was hired, the replacement grant accountant corrected the records
of the first 2 years of the grant.

TPF management responded that the finding, “QFSR Was Not Supported by SDA-V & TPF’s
Financial Records,” does not imply that the final QFSRs were inaccurate.

SDA-V did not respond to this finding.




DOL-OIG Report No. 05-03-001-03-386                                                         22
SDA-V & TPF Welfare-to-Work Competitive Grant


Recommendation

We recommend that the Assistant Secretary for Employment and Training:

       a.      ensure that SDA-V & TPF transfer $11,041 to KDHR for excess funds received
               as of March 31, 2002;

       b.      ensure that SDA-V & TPF adjusts its financial records to reflect $35,053 due to
               KDHR in a receivable account as of March 31, 2002; and

       c.      recover questioned costs of $2,137,574 and $959 in program income.

Auditor’s Conclusion

To clarify, the final QFSRs were indeed inaccurate. Attention is directed to the Independent
Auditor’s Report, Opinion on Quarterly Financial Status Report (QFSR) which indicates that
because of the matters identified in the Findings and Recommendations Section of this report,
“line 2, Federal Expenditures, of the QFSR does not present fairly, in all material respects, the
total allowable incurred costs. . . . We were unable to express an opinion as to the allocation of
incurred costs between the functions of programmatic and administrative costs as reported on the
QFSR lines 3-5, and the allocation of expenses among the categories of participants served as
reported on the QFSR lines 6a and b.”

No additional information was provided in the responses to the draft audit report. As such, the
recommendations above remain unchanged.




DOL-OIG Report No. 05-03-001-03-386                                                       23
SDA-V & TPF Welfare-to-Work Competitive Grant


               3. Misclassified and Inadequate Documentation of Participants


A. Inadequate Participant Tracking

SDA-V & TPF reported 171 participants served on the March 31, 2002 QFSR (125 as general
eligibility/noncustodial parents and 46 as other eligibles). SDA-V & TPF maintained a database
of participants served which we compared with the database maintained by KDHR. The SDA-V
& TPF database contained 183 participants (125 in the general eligibility/noncustodial parents
category and 58 in the other eligibles category), whereas KDHR’s database contained a total of
195 participants (128 in the general eligibility/noncustodial parents category and 67 in the other
eligibles category).

KDHR’s database had 12 participants reported in both categories (general eligibility/
noncustodial parents and other eligibles). Nine should have been reported only in the general
eligibility/noncustodial parent’s category; thus, reducing the 67 in KDHR’s database to
58 participants in the other eligibles category. Three participants should have been reported only
in the other eligibles category; thus reducing the 128 in KDHR’s database to
125 participants in the general eligibility/noncustodial parent’s category.

After considering the above differences, both databases would now equal the same
183 participants served. These adjusted database listings were used as the universe of
participants upon which we selected a sample for testing.

B. Misclassified Participants

Two participants were misclassified as to whether they had met the general eligibility/
noncustodial parent’s eligibility requirements. However, these two participants did not meet the
criteria, as they were not in receipt of welfare benefits for the length of time prescribed.

The regulations at 20 CFR 645.212(a)(1) effective January 1, 2000 state in part that, in order to
be eligible under the hard to serve criteria, the individual:

       . . . is currently receiving TANF assistance under a State TANF program,
       and/or its predecessor program for at least 30 months . . . .

The training costs associated with these two participants could not be determined as noted in
finding 2.B.

Based on the corrections to the databases in finding A and the misclassifications of participants
in finding B above, the correct number of participant served should be 123 (125 minus 2) in the
general eligibility/noncustodial parents category and 60 (58 plus 2) in other eligibles category for
a total of 183 participants served during the life of the grant.




DOL-OIG Report No. 05-03-001-03-386                                                         24
SDA-V & TPF Welfare-to-Work Competitive Grant


Recommendation

We recommend that the Assistant Secretary for Employment and Training ensure that the QSFR
lines 10, 10a and 10b are amended to show the total number of participants served by SDA-V &
TPF as of March 31, 2002, to be 183, 123 and 60, respectively.


Grantee Responses

TPF management indicated that TPF case managers throughout the life of the grant did a superb
job of participant tracking and classifying potential clients. The case files created, services
provided and lives changed far outweighed the minor discrepancies listed in paragraph 3.

SDA-V did not respond to this finding.

Auditor’s Conclusion

No new information was provided that would alter or resolve the recommendation. As such, the
above recommendation remains unchanged.




DOL-OIG Report No. 05-03-001-03-386                                                      25
SDA-V & TPF Welfare-to-Work Competitive Grant


                                                             Appendix A




          Local Workforce Investment Board Area V
          (formerly Private Industry Council SDA-V)

                                                and

                            Executive Director of
                          Training Plus Foundation
                                 Responses to Draft Report




DOL-OIG Report No. 05-03-001-03-386                              26
